         AUDIT OF
   THE NATIONAL COUNCIL
     ON THE AGING, INC.

    Grant No. D-6134-7-00-81-55
July 1, 1997 through August 31, 1998

   Grant No. D-6635-8-00-81-55
 July 1, 1998 through June 30, 1999




                    REPORT NO: 02-02-202-03-360
                    DATE:      February 11, 2002
                                   TABLE OF CONTENTS

                                                                                                                            PAGE
ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

DEPUTY INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

EXHIBITS

          A         FINANCIAL STATUS REPORTS, GRANT NOS. D-6134-7-00-81-55
                    AND D-6635-8-00-81-55 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

          B         SCHEDULE OF REPORTED AND QUESTIONED DIRECT COSTS
                    JULY 1, 1997 THROUGH AUGUST 31, 1998 . . . . . . . . . . . . . . . . . . . . . . . . 19

          C         SCHEDULE OF REPORTED AND QUESTIONED DIRECT COSTS
                    JULY 1, 1998 THROUGH JUNE 30, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

          D         SCHEDULE OF REPORTED AND QUESTIONED INDIRECT COSTS
                    JULY 1, 1997 THROUGH AUGUST 31, 1998 . . . . . . . . . . . . . . . . . . . . . . . . 21

          E         SCHEDULE OF REPORTED AND QUESTIONED INDIRECT COSTS
                    JULY 1, 1998 THROUGH JUNE 30, 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

APPENDICES

          A         NATIONAL COUNCIL ON THE AGING RESPONSE TO
                    DRAFT REPORT - SEPTEMBER 4, 2001 . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

          B         NATIONAL COUNCIL ON THE AGING RESPONSE TO
                    DRAFT REPORT - OCTOBER 11, 2001 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
          ACRONYMS


BOSS      Business Outreach Software System

CFR       Code of Federal Regulations

DES       Arizona Department of Economic Security

DOL       U.S. Department of Labor

EPA       Environmental Protection Agency

ETA       Employment and Training Administration

FSR       Financial Status Report

FY        Fiscal Year

G&A       General and Administrative

MFR       Monthly Financial Report

NCOA      The National Council on the Aging, Inc.

NYCDFTA   New York City Department for the Aging

OAA       Older Americans Act of 1965

OASAM     Office of the Assistant Secretary for Administration
           and Management

OIG       Office of Inspector General

OMB       Office of Management and Budget

SCSEP     Senior Community Service Employment Program




                     i
                            EXECUTIVE SUMMARY
The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an audit of
costs claimed by The National Council on the Aging, Inc. (NCOA) under contracts
D-6134-7-00-81-55 and D-6635-8-00-81-55 for the periods July 1, 1997 through
August 31, 1998, and July 1, 1998 through June 30, 1999, respectively. The audit objective was
to determine if costs claimed were reasonable, allocable and allowable in accordance with
applicable Federal regulations, and Office of Management and Budget (OMB) Circular A-122,
Cost Principles for Non-Profit Organizations.

NCOA was established in 1950 as a nonprofit education and research organization focused on
improving the quality of life for older Americans. During FYs 1998 and 1999, NCOA had total
revenues of $51 million and $50 million, respectively. Of these amounts, approximately $40
million was provided annually by DOL to administer the Senior Community Service Employment
Program (SCSEP) under Title V of the Older Americans Act (OAA). The purpose of SCSEP is
to provide useful part-time community service assignments for persons who are 55 years or older
with incomes at or below 125 percent of the Federal poverty guideline while promoting transition
to unsubsidized employment.

Audit Results

In our opinion, except for questioned costs, the Financial Status Reports (Exhibit A) for
Grant No. D-6134-7-00-81-55 (July 1, 1997, through August 31, 1998), and Grant No.
D-6635-8-00-81-55 (July 1, 1998, through June 30, 1999) present fairly, in all material respects,
the results of NCOA’s operations in accordance with applicable Federal regulations, and OMB
Circular A-122, Cost Principles for Non-Profit Organizations. The audit resulted in questioned
direct costs of $580,955 for FYs 1998 and 1999:

      Grant No.                     Period              Reported      Questioned       Per Audit
 D-6134-7-00-81-55           7/1/1997 - 8/31/1998       $39,829,444    $516,652       $39,312,792
 D-6635-8-00-81-55           7/1/1998 - 6/30/1999       $39,755,191      64,303        39,690,888
           Total                                        $79,584,635    $580,955       $79,003,680

Questioned direct costs of $580,955 are summarized below:

       !           Administrative costs exceeded the statutory administrative ceiling by $235,737.

       !           NCOA did not provide documentation to support $136,589 paid to vendors.



                                                    1
       !       We question $155,616 of costs, primarily due to expensed equipment that should
               have been capitalized, and other unallowable costs.

       !       We question $53,013 of general and administrative (G&A) and subcontract
               administration costs associated with above questioned costs.

In addition, we questioned $26,919 of indirect costs, due to missing documentation, unexplained
travel, and unallowable gifts and alcoholic beverage costs. As a result, the proposed indirect cost
rates should be reduced from 10.13 percent to 10.08 percent for Grant No. D-6134-7-00-81-55
and from 8.43 percent to 8.35 percent for Grant No. D-6635-8-00-81-55.

NCOA Response

The President and CEO responded to our draft report on September 4, 2001, and
October 11, 2001. He agreed with questioned costs of $135,539 for capitalization, subgrantee
costs, unallocable costs, and associated G&A costs. However, he disagreed with questioned
costs of $445,416.

Based on the additional documentation provided by NCOA, we have reduced questioned direct
costs by $4,433,037 and indirect costs by $6,269 as presented in the draft report. NCOA’s
response to the draft report has been incorporated in the report with our comments. It is also
included in its entirety as an Appendix.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

       1.      Recover $580,955 of questioned direct costs.

       2.      Require NCOA develop procedures to allocate costs between enrollee and
               administrative categories based upon benefits received and maintain documentation
               for procurements in excess of $25,000.

We also recommend that the Director of the Office of Cost Determination (OCD), Office of the
Assistant Secretary for Administration and Management (OASAM), ensure that NCOA applies
the revised indirect cost rates of 10.08 percent for Grant No. D-6134-7-00-81-55, and 8.35
percent for Grant No. D-6635-8-00-81-55, and amends its billings accordingly.




                                                 2
                                             INTRODUCTION

                        As authorized by Title V of the OAA, SCSEP fosters and promotes
  BACKGROUND            useful part-time opportunities in community service activities for persons
                        with low incomes who are 55 years old or older. The Employment and
                        Training Administration (ETA) administers the program by grant
agreements with eligible organizations, such as governmental entities and public and private non-
profit agencies and organizations.

NCOA was established in 1950 as a nonprofit education and research organization focused on
improving the quality of life for older Americans. NCOA has two affiliates, the National Council
on the Aging Foundation, Inc., and the National Council on the Aging Development Corporation.
During FYs 1998 and 1999, NCOA had total revenues of $51 million and $50 million,
respectively. Of these amounts, approximately $40 million was provided annually by DOL to
administer SCSEP. Other Federal funding sources include the Environmental Protection Agency,
Department of Health and Human Services, and Department of Education.

For grant numbers D-6134-7-00-81-55 and D-6635-8-00-81-55, NCOA proposed indirect cost
rates of 10.13 and 8.43 percent, respectively, to be applied to total direct costs (excluding
subgrantee/subcontract costs and including fringe benefits on direct labor), as shown below:

                                                                           Grant No.                              Grant No.
                                                                    D-6134-7-00-81-55                    D-6635-8-00-81-55
   Indirect Costs Pool (Exhibits D & E)                                             $1,922,493                       $1,937,316
   Distribution Base:
     Total Direct Costs1                                                          $46,592,531                       $46,144,195
     Add: Fringe Benefits on Direct Labor                                           1,571,339                          1,558,959
     Less: Subgrantee/Subcontract Costs                                          (29,181,125)                       (24,716,238)
   Distribution Base                                                              $18,982,745                       $22,986,916
   Indirect Cost Rate Percentage                                                            10.13                             8.43




       1
           Total direct costs includes costs from DOL, other Government agencies and non-government activities.


                                                                      3
                             The audit objective was to determine if costs claimed under Grant
 AUDIT OBJECTIVE             No. D-6134-7-00-81-55, for the period July 1, 1997 through
                             August 31, 1998, and Grant No. D-6635-8-00-81-55, for the period
                             July 1, 1998 through June 30, 1999, were reasonable, allocable and
allowable in accordance with the Code of Federal Regulations (CFR) Title 20 Part 641, Senior
Community Service Employment Program and OMB Circular A-122, Cost Principles for Non-
Profit Organizations.

                              We audited NCOA’s costs of $39,829,444 claimed under Grant
 AUDIT SCOPE AND              Number D-6134-7-00-81-55 for the period July 1, 1997 through
 METHODOLOGY                  August 31, 1998, and $39,755,191 claimed under Grant Number
                               D-6635-8-00-81-55 for the period July 1, 1998 through
                              June 30, 1999.

We obtained an understanding of internal controls through inquiries with appropriate personnel,
inspection of relevant documentation, and observation of NCOA’s operation. The nature and
extent of our testing were based on our risk assessment.

We audited Financial Status Reports and indirect cost proposals under Grant No.
D-6134-7-00-81-55 for the period July 1, 1997 through August 31, 1998, and Grant Number
 D-6635-8-00-81-55 for the period July 1, 1998 through June 30, 1999. We examined general
ledgers, journals and supporting documents such as canceled checks, vouchers, and invoices. We
used a combination of random and judgmental sampling to test individual account transactions and
balances. We examined participant files from a judgmental sample of six resource centers (Los
Angeles, Fort Lauderdale, San Francisco, West Palm Beach, San Jose and Maine) to determine
participant eligibility. We did not audit third party contributions or performance measurements of
NCOA.

The audit was performed using criteria we considered relevant. Criteria included 20 CFR Part
641, Senior Community Service Employment Program and OMB Circular A-122, Cost Principles
for Non-Profit Organizations. Also, requirements of the grants were used as criteria in evaluating
the allowability of claimed costs.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to audits of financial statements contained in Government Auditing Standards, issued by
the Comptroller General of the United States. Our fieldwork was conducted at NCOA’s
headquarters located in Washington, D.C., and subgrantees located in New York, New York, and
Phoenix, Arizona. Audit results were discussed with NCOA’s management on October 12, 2001.




                                                 4
Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


                     DEPUTY INSPECTOR GENERAL’S REPORT

We audited the Financial Status Reports (Exhibit A) for the period July 1, 1997 through August
31, 1998, under grant number D-6134-7-00-81-55 and for the period July 1, 1998 through
June 30, 1999, under grant number D-6635-8-00-81-55. Reported costs are the responsibility of
NCOA’s management. Our responsibility is to express an opinion on the reported costs based on
our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
reported costs are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting reported costs. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall presentation
of the costs reported. We believe our audit provides a reasonable basis for our opinion.

The Financial Status Reports (Exhibit A) were prepared in conformity with accounting practices
prescribed by 20 CFR Part 641, “Senior Community Service Employment Program” which is a
comprehensive basis of accounting other than generally accepted accounting principles. Allowable
costs are established by OMB Circular A-122, Cost Principles for Non-Profit Organizations.

Opinion on Financial Statement

As discussed in the Findings and Recommendations section, excess administrative costs,
insufficient documentation, and general administrative costs associated with questioned costs
largely contributed to questioned direct costs of $580,955, consisting of $516,652 related to grant
number D-6134-7-00-81-55 and $64,303 related to grant number D-6635-8-00-81-55.
Unallocable, unallowable, and other unsupported costs also resulted in reducing the Indirect Cost
Rate from 10.13 to 10.08 percent for grant number D-6134-7-00-81-55 and from 8.43 percent to
8.35 percent for grant number D-6635-8-00-81-55. ETA and OCD are responsible for resolving
these questioned costs. The total effect of their determinations cannot be estimated at this time.


                                                 5
In our opinion, except for the matters discussed in the preceding paragraph, the Financial Status
Reports (Exhibit A) present fairly, in all material respects, the results of NCOA’s operation in
accordance with applicable Federal regulations and OMB Circular A-122 under grant number
D-6134-7-00-81-55 for the period July 1, 1997 through August 31, 1998, and grant number
D-6635-8-00-81-55 for the period July 1, 1998 through June 30, 1999.

Report on Internal Control

In planning and performing our audit, we considered NCOA’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on reported costs and not to provide assurances on the internal control over financial reporting.
However, we noted certain matters involving the internal controls over maintaining adequate
support for claimed costs that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect NCOA’s ability to record, process, summarize, and report financial data consistent with the
assertions of management in the financial statements. Reportable conditions are described in the
Findings and Recommendations section of this report.

A material weakness is a condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level of risk that misstatements in amounts
that would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control that might be reportable conditions, and accordingly,
would not necessarily disclose all reportable conditions that are also considered to be material
weaknesses. However, we do not believe that the reportable conditions described in the Findings
and Recommendations section are material weaknesses.

Report on Compliance With Laws and Regulations

Compliance with laws, regulations and grant agreement provisions are the responsibility of NCOA.
As part of obtaining reasonable assurance about whether the reported costs are free of material
misstatement, we performed tests of NCOA’s compliance with certain provisions of laws,
regulations and the grants. However, our objective was not to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion. The results of
our tests disclosed instances of noncompliance that are required to be reported under Government
Auditing Standards and which are described in the Findings and Recommendations section of this
report.

Supplementary Information

Our audit was conducted for the purpose of forming an opinion on the costs claimed by NCOA for
the periods July 1, 1997 through August 31, 1998 and July 1, 1998 through June 30, 1999. The
accompanying Schedules of Reported and Questioned Direct Costs (Exhibits B & C) and
Schedules of Reported and Questioned Indirect Costs (Exhibits D & E) are presented for the
purpose of additional analysis. Such information has been subjected to the auditing procedures

                                                 6
applied in the audits of direct and indirect costs, and, in our opinion, is fairly stated in all material
respects, in relation to the direct expenses and indirect costs taken as a whole.

This report is intended solely for the information and use of NCOA, ETA and OCD, and is not
intended to be and should not be used by anyone other than these specified parties.



Elliot P. Lewis
Acting Deputy Inspector General
  for Audit

May 12, 2000




                                                     7
           FINDINGS AND RECOMMENDATIONS

For the period July 1, 1997 through August 31, 1998, NCOA claimed costs of $39,829,444 under
grant number D-6134-7-00-81-55 (Exhibit B). For the period July 1, 1998 through
June 30, 1999, NCOA claimed costs of $39,755,191 under grant number D-6635-8-00-81-55
(Exhibit C). We question $580,955 of direct costs, primarily as a result of administrative costs in
excess of statutory limits, insufficient documentation, and applicable administrative costs, as
summarized below:

                                                       Grant Number                     Grant Number
                                                      D-6134-7-00-81-55                D-6635-8-00-81-55       Total
 Excess Administrative Costs                                  $235,737                                    0    $235,737
 Insufficient Documentation                                     104,840                         $31,749         136,589
 Capitalization                                                   72,133                              25,351     97,484
 Subgrantee Costs                                                 20,152                                  0      20,152
 Collected Registration Fees                                     29,275                                   0      29,275
 Misclassified Costs                                               6,501                                  0       6,501
 Unallocable Costs                                                      0                             2,204       2,204
 Applicable Administrative Costs                                48,0142                               4,9993     53,013
 Total Questioned Costs                                       $516,652                          $64,303        $580,955


                                            For FY 1998, NCOA claimed administrative costs of $5,612,712
 Excess Administrative                      or 14.09 percent of the grant amount, $39,829,444. This amount
 Costs - $235,737                           exceeded the statutory administrative ceiling rate of 13.5 percent of
                                            the grant. As a result, we question $235,737 of administrative
                                            costs. The Older Americans Act of 1965 (OAA) Title V, 502 (c)
                                            (3) states:

       Of the amount for any project to be paid by the Secretary under this subsection, not more


       2
           Consists of general administrative ($47,567) and subgrantee administrative ($447) costs.
           (See Exhibit B.)

       3
           Consists of general administrative costs. (See Exhibit C.)

                                                                        8
       than 13.5 percent for fiscal year 1987 and each fiscal year thereafter shall be available
       for paying the costs of administration for such project. . . . [Emphasis added]

Furthermore, 20 CFR 641.405 (b)(1) states:

       Administration. The amount of federal funds expended for the cost of administration
       during the program year shall be no more than 13.5 percent of the grant.

NCOA’s Response

       As previously indicated, the Council acknowledges that it exceeded the Administrative
       Cost cap for program year 1998 by 0.592% without prior approval from the Department
       of Labor as provided for in 20CFR641.406.

       The Council believed that in light of the highly subjective nature of the classification of
       costs between administrative and other enrollee costs categories, a detailed examination
       of the classification of costs for program year 1998 would result in the appropriate
       reclassification of costs sufficient to reduce the administrative cost percentage to the
       allowable level. . . .

       The Council performed a detailed review of program year 1998 labor and contracted
       services expenses for cost center “6002-101 SCSEP Hqtrs. Admin”. Based on this
       review, the Council intends to reclassify $253,285.26 from the administrative cost
       category to the other enrollee cost category. . . .

OIG Comment

NCOA’s proposed adjustment does not comply with OMB requirements and is inconsistent with
NCOA’s cost policy statement. In NCOA’s proposed reclassification of labor hours and costs
for employees, NCOA has not provided adequate support to justify the proposed reclassification
of employee salaries from the administrative cost category to other enrollee cost category. OMB
Circular A-122, Attachment A, Section A.2g states:

       Factors affecting allowability of costs. To be allowable under an award, costs must meet
       the following general criteria . . . Be adequately documented.

In addition, NCOA’s Cost Policy Statement Section 6 (II) A states:

       . . . NCOA policy requires all employees to account for all hours worked. . . . This
       ensures fair and equitable distribution of wage costs to the benefitting programs, as well
       as equitable distribution of Service Center Costs . . . .




                                                9
                             NCOA did not provide documentation to support $136,589 paid to
 Insufficient                vendors. This condition existed because NCOA did not ensure that
 Documentation -             when an invoice was paid the original invoice and supporting
 $136,589                    documentation were properly filed. As a result, we question costs of
                             $136,589, consisting of $104,840 and $31,749 for FYs 1998 and
                             1999, respectively. OMB Circular A-122, Attachment A, Section
A.2g states:

       Factors affecting allowability of costs. To be allowable under an award, costs must meet
       the following general criteria . . . Be adequately documented.

NCOA’s Response

       . . . .The Council was unable to respond to certain items . . . due to lack of information
       detailing the exact nature of the outstanding items. . . .

OIG Comment

On September 20 and 28, 2000, NCOA was provided a list detailing missing information.
However, NCOA has not provided additional documents to resolve these costs.

                              NCOA expensed equipment of $97,484 that should have been
 Capitalization - $97,484     capitalized and depreciated annually over the useful life of the asset
                              in accordance with NCOA’s Cost Policy Statement. In addition,
                              NCOA did not receive prior approval from ETA to expense
equipment directly. As a result, we question $97,484, consisting of $72,133 under grant number
D-6134-7-00-81-55 and $25,351 under grant number D-6635-8-00-81-55. OMB Circular A-122,
Attachment B, Paragraph 15 a.(1) states:

       Equipment means an article of non-expendable, tangible personal property having a
       useful life of more than one year and an acquisition cost equals or exceeds the lesser of
       (a) the capitalization level established by the organization for the financial statement
       purpose, or (b) $5,000.

Furthermore, NCOA’s Cost Policy Statement states:

       . . . The cost of capital items purchased is recovered through depreciation charges.
       However, some equipment may be charged directly to a grant/contract if approved by the
       funding agency. . . . NCOA recovers the cost of capital items using the straight-line
       depreciation methods in accordance with generally accepted accounting principles.




                                                10
Equipment items that should have been capitalized are listed below:

                                                                                Grant No.                   Grant No.
   Vendor                          Description                              D-6134-7-00-81-55           D-6635-8-00-81-55
   United Senior Health            BOSS system                                       $55,000                            0

   DRICA                           Cyberlab for job placement                         11,833                            0

   Melsystem                       Facsimile                                            5,300                           0

   Oracle Corp.                    Server                                                     0                   $12,355

   Micron Electronics              NT server                                                  0                     7,110

   Document Tech.                  Duplex scanner                                             0                     5,886

                                                  Total                              $72,133                      $25,351

NCOA’s Response

       The Council agrees with the finding and will take the appropriate action to ensure that
       the assets are properly capitalized and depreciated (i.e., cost recovered), in the
       appropriate program years, according to the Council’s established policies and
       procedures.

                                   NYCDFTA made cash payments of $20,152 (grant number
 Subgrantee Costs- $20,152         D-6134-7-00-81-55) and $33,5634 (grant number D-6635-8-00-
                                   81-55) to enrollees in lieu of providing health benefits. OMB
                                   Circular A-87 and 20 CFR Part 641 state health insurance cost
is an allowable fringe benefit. However, these regulations do not provide for cash payments to
enrollees in lieu of providing fringe benefits. A Statement of Facts was provided to NYCDFTA
and they concurred with the findings.

NCOA’s Response

       The New York City Department for the Aging agreed with findings and questioned costs.
       The Council will work with the subgrantee to ensure that proper restitution is made to the
       Department of Labor.

                                          NCOA collected $29,275 of conference registration fees
 Collected Registration                   from attendees. NCOA did not report this amount as grant income
 Fees - $29,275                           or reduce conference costs by this amount. As a result, we
                                          question $29,275 of conference costs under grant number D-6134-


       4
           As a result of our audit, NYCDFTA adjusted the final FSR for the waiver buyout of $33,563.

                                                                   11
7-00-81-55. OMB Circular A-122, Attachment A, Section A.5(a) states:

       The term applicable credits refers to those receipts, or reduction of expenditures which
       operate to offset or reduce expense items that are allocable to awards as direct or
       indirect costs . . . To the extent that such credit accruing or received by the organization
       related to allowable cost, they shall be credited to the Federal Government either as a
       cost reduction or cash refund, as appropriate.

NCOA’s Response

       The documents included herein support the Council’s recognition of registration fees
       collected at the three NCOA/DOL ETA regional conferences held in program year
       1997-1998. The fees were recorded in Department of Labor related general ledger
       accounts.

OIG Comment

Documentation provided by NCOA contains general ledger detail showing revenue and sales from
the regional conferences. However, it does not show how expenses were credited or how
receipts were reduced for the amount of registration fees collected.


                              Under grant number D-6134-7-00-81-55, NCOA directly
                              allocated $6,501 of indirect costs to SCSEP which should have
  Indirect Costs              been accumulated in the indirect cost pool and allocated to all
  Misclassified as Direct     NCOA programs. Costs included $3,200 for preparing NCOA’s
  Costs - $6,501              indirect cost proposal, $1,898 for corporate travel, and $1,403
                              for a finance meeting. Indirect cost proposal preparation,
                              corporate travel and finance meetings pertain to the overall
operation of NCOA. As a result, we question $6,501 of indirect costs misclassified as direct
costs. OMB Circular A-122 Attachment A, Section C.1 states:

       Indirect costs are those that have been incurred for common or joint objectives and
       cannot be readily identified with a particular final cost objective. . .

NCOA’s Response

       . . . .questioned costs of $3,200. . . . the Council agrees with your conclusion and will
       reclassify the costs related to this service into the indirect cost pool (specifically, the
       finance pool) as the cost benefits the Council’s organization-wide federal program
       activities.

       $1,898 for corporate travel: The Council was unable to respond to this item because of
       the lack of information detailing the exact nature of the costs questioned.

                                                 12
       . . . .questioned costs of $1,403: . . . the Council held its annual Fall Leadership Council
       meeting in Albuquerque, NW, in program year 1998. During this meeting, the Council’ s
       Board of Directors convened to discuss the state of the organization. Additionally,
       certain Committees of the Board, including the Finance Committee, Strategic Planning
       Committee, Personal Committee, Workforce Development Board, etc., met at this
       time. . . . During the entire meeting, Ms. Williams and Mr. Marks focused solely on
       issues related to Workforce Development. . . .

OIG Comment

NCOA agreed with questioned costs of $3,200 to prepare its indirect cost proposal. However,
NCOA did not agree with questioned costs for corporate travel and leadership council meeting.
Subsequent to NCOA’s response, OIG requested additional information on September 20 and
28, 2001, to resolve these questioned costs. NCOA has not provided this additional information.

                            NCOA allocated $2,204 to the SCSEP grant for two computers
 Unallocable Costs - $2,204 for which DOL received no benefit. The computers were used
                            by EPA employees working under projects funded by EPA. As
                            a result, we question $2,204 under grant number
D-6635-8-00-81-55. OMB Circular A-122, Attachment A, Section A.4a states:

       A cost is allocable to a particular cost objective, such as a grant, contact, project,
       service, or other activity in accordance with the relative benefits received. . . .

NCOA’s Response

       The Council agrees with the finding and will take the appropriate action to ensure that
       proper restitution is made to the Department of Labor.




                                                13
 Indirect Costs - $26,919


Overall, indirect costs claimed by NCOA were reasonable, allocable, and allowable. However, we
question $26,919 of indirect costs claimed, which included missing documentation, unexplained
travel, and unallowable charges for gifts and alcoholic beverages, as shown below:

                                     Grant No.                    Grant No.
   Description                   D-6134-7-00-81-55         D-6635-8-00-81-55                Total

   Missing documentation                     $11,275                     $17,197               $28,472
   Unexplained travel                             2,102                           0                 2,102
   Unallowable                                    2,775                          71                 2,846
   gifts/alcohol

   Subtotal                                      16,152                   17,268                   33,420
   Less: Indirect Costs
   Misclassified As                               6,501                           0                 6,501
   Direct Costs (Finding I)

              Total                              $9,651                  $17,268               $26,919

As a result, NCOA’s proposed indirect cost rates should be reduced as shown below:

   Grant No. D-6134-7-00-81-55                     Proposed         Questioned         Per Audit

     Indirect Cost (Exhibit D)                      $1,922,493          $9,651         $1,912,842
     Distribution Base                             $18,982,745                0       $18,982,745

     Indirect Cost Rate Percentage                        10.13               0             10.08

   Grant No. D-6635-8-00-81-55
     Indirect Cost (Exhibit E)                      $1,937,316         $17,268         $1,920,048
     Distribution Base                             $22,986,916                0       $22,986,916

     Indirect Cost Rate Percentage                         8.43               0              8.35




                                                   14
OMB Circular A-122, Attachment A, Section A.2g states:

       Factors affecting allowability of costs. To be allowable under an award, costs must meet
       the following general criteria. . . . Be adequately documented.

OMB Circular A-122, Attachment B, Paragraph 1f and 2 state:

       Unallowable advertising and public relations costs include the following: . . . (3) Costs of
       promotional items and memorabilia, including models, gifts, and souvenirs; . . . .
       Alcoholic beverages. Cost of alcoholic beverages are unallowable.

NCOA’s Response

       . . . .The Council was unable to respond to certain items . . . .due to a lack of information
       detailing the exact nature of the outstanding items.

OIG Comment

On September 20 and 28, 2000 NCOA was provided a list detailing missing information.
However, NCOA has not provided additional documents to resolve these costs.


                                    NCOA did not provide documentation to support resource
  Allocation of Costs to            center allocation of rent, telephone, and payroll service to
  Enrollee and Administrative       enrollee and administrative cost categories. The percentages
  Categories                        allocated to enrollee and administrative categories were
                                    based on predetermined rates. This condition existed
                                    because NCOA did not support how allocation percentages
were calculated. Further, the same percentage was not consistently applied to invoices
throughout the year. As a result, amounts reported as enrollee and administrative costs may not
be reliable. OMB Circular A-122 Attachment A, Section A.4a states:

       A costs is allocable to a particular costs objective, such as a grant, contract, project,
       service, or other activity, in accordance with the relative benefits received. A cost is
       allocable to a Federal award if it is treated consistently with other costs incurred for the
       same purpose in like circumstances. . . .

Furthermore, OMB Circular A-122, Attachment A, Section A.2d states:

       Factors affecting allowability of costs. To be allowable under an award, costs must meet
       the following general criteria . . . Be accorded consistent treatment. . . .




                                                15
NCOA’s Response

       The Council will install appropriate internal controls to ensure that the documentation
       supporting the allocation of costs incurred between the administrative and other enrollee
       cost categories is maintained pursuant to the federal records retention policies and
       procedures.

                  NCOA could not provide documentation to support the solicitation of
 Procurement      proposals and awarding of contracts that exceeded $25,000. NCOA
 Documentation    awarded contracts to KPMG Peat Marwick LLP for $959,152, NCOA
                  Development Corp., for $150,000, Drica, Inc., for $127,800, and Ceridian
                  Corporation for $101,744 without following proper procurement
procedures. OMB Circular A-110, SubPart A Section 44 (e) states:

       Recipients shall, on request, make available for the Federal awarding agency, pre-award
       review and procurement documents, such as request for proposals or invitation for bids,
       independent cost estimates, etc., when any of the following condition apply . . . The
       procurement is expected to exceed the small purchase threshold fixed at 41 U.S.C. 403
       (11) (currently $25,000) and is to be awarded without competition or only one bid or
       offer is received in response to a solicitation. . . The procurement, which is expected to
       exceed the small purchase threshold, specifies a ‘brand name’ product. . . .

NCOA’s Response

       The Council will install appropriate internal controls to ensure that the documentation
       supporting the procurement of goods and services is maintained pursuant to the policies
       and procedures outlined in OMB Circular A-110, SubPart A, Section 44(e).




                                               16
                                     Recommendations

We recommend that the Assistant Secretary for Employment and Training:

       1.     recover $516,652 of questioned direct costs for the period July 1, 1997 through
              August 31, 1998, under grant number D-6134-7-00-81-55;

       2.     recover $64,303 for the period July 1, 1998 through June 30, 1999, under grant
              number D-6635-8-00-81-55;

       3.     ensure that NCOA develops procedures to allocate costs between enrollee and
              administrative categories based upon benefits received; and

       4.     require NCOA to maintain documentation for procurements in excess of $25,000.

We also recommend that the Director of the Office of Cost Determination in OASAM ensure that
NCOA applies the revised indirect cost rates of 10.08 percent for Grant No. D-6134-7-00-81-55
and 8.35 percent for Grant No. D-6635-8-00-81-55, and amends its billings accordingly.




                                              17
                                                                              EXHIBIT A

                      The National Council on the Aging
                      Financial Status Reports Per Audit

                        Grant No. D-6134-7-00-81-55
                    July 1, 1997 through August 31, 1998

                       Grant No. D-6635-8-00-81-55
                     July 1, 1998 through June 30, 1999


Grant No. D-6134-7-00-81-55                Reported        Questioned       Per Audit
  Total Outlays                           $45,840,109         $516,652      $45,323,457
  Third Party Contributions (Unaudited)     6,010,665                   0     6,010,665
  Federal Share of Net Outlays            $39,829,444         $516,652      $39,312,792




Grant No. D-6635-8-00-81-55
 Total Outlays                            $44,495,819          $64,303      $44,431,516
 Third Party Contributions (Unaudited)         4,740,628                0     4,740,628
 Federal Share of Net Outlays             $39,755,191          $64,303      $39,690,888




                                          18
                                                                                                                              EXHIBIT B

                                 The National Council on the Aging
                          Schedule of Reported and Questioned Direct Costs
                                 Grant Number D-6134-7-00-81-55
                               July 1, 1997, Through August 31, 1998


                        Cost Categories                               Reported               Questioned              Per Audit

          Employee Labor                                              $1,151,404                            0            $1,151,404
          Enrollee Labor                                                6,399,164                           0             6,399,164

          Employee Release Time                                           176,087                           0               176,087

          Enrollee Release Time                                           625,991                           0               625,991

          In-House Consultant                                              (1,733)                          0                 (1,733)

          Contracted Services                                              303,367                 $20,333                  283,034

          Subcontract/Subgrantee                                      26,756,339                     20,152              26,736,187

          Conference/Meetings                                              145,793                   45,180                 100,613

          Supplies/Materials                                                53,448                    3,966                   49,482

          Printing                                                          78,304                   20,858                   57,446

          Communications                                                   116,480                       507                115,973

          Travel                                                           452,557                   66,905                 385,652

          Other Direct Costs                                               364,463                   55,000                 309,463

          Service Center Costs                                             474,566                          0               474,566

          Employee Fringe (17.18%)                                         228,064                          0               228,064

          Company Fringe (9.25%)                                           766,334                          0               766,334

          Sub Administrative (2.22%)                                       595,281                       447                594,834

          Subtotal                                                    38,685,909                   233,348               38,452,561
          General and Administrative (10.14%)                           1,143,535                 283,3045                  860,231
          Total                                                      $39,829,444                  $516,652             $39,312,792




           5
             Includes $47,567 {($233,348 + $235,737) x 10.14 percent} of general and administrative costs associated with questioned costs and
$235,737 of administrative costs in excess of the statutory limitation.


                                                                      19
                                                                                                                  EXHIBIT C

                     The National Council on the Aging, Inc.
                Schedule of Reported and Questioned Direct Costs
                       Grant Number D-6635-8-00-81-55
                      July 1, 1998, Through June 30, 1999


                 Cost Categories                                Reported           Questioned               Per Audit

    Employee Labor                                              $1,344,658                        0          $1,344,658
    Enrollee Labor                                                 7,532,183                      0           7,532,183

    Employee Release Time                                           275,158                       0             275,158

    Enrollee Release Time                                           707,376                       0             707,376

    Contracted Services                                             271,078                       0             271,078
    Subcontract/Subgrantee                                      25,336,937                        0          25,336,937

    Conference/Meetings                                               59,568                      0              59,568

    Supplies/Materials                                              110,106               $18,241                91,865

    Printing                                                          14,925                      0              14,925

    Communications                                                  160,697                       0             160,697

    Travel                                                          334,921                30,631               304,290

    Other Direct Costs                                              486,482                10,432               476,050

    502 (e)                                                         261,932                       0             261,932

    Service Center Costs                                            631,213                       0             631,213

    Employee Fringe (9.26%)                                         149,995                       0             149,995

    Company Fringe (8.76%)                                          863,681                       0             863,681

    Subtotal                                                    38,540,910                 59,304            38,481,606

    General and Administrative (8.43%)                             1,214,281                4,9996            1,209,282

    Total                                                      $39,755,191                $64,303           $39,690,888




6
    Questioned cost of $4,999 was calculated by multiplying questioned costs of $59,304 by the applicable
    general and administrative rate (8.43 percent).


                                                              20
                                                                                                                         EXHIBIT D

                     The National Council on the Aging, Inc.
                Schedule of Reported and Questioned Indirect Costs
                        Grant Number D-6134-7-00-81-55
                      July 1, 1997, Through August 31, 1998


                  Cost Categories                               Reported              Questioned               Per Audit

    Salaries                                                         $383,708                       0                $383,708

    Fringe Benefits                                                    101,385                      0                 101,385

    Audit Fees                                                          42,613                      0                  42,613

    Advertising/Recruitment                                             15,261                      0                  15,261

    Bank Charges                                                        28,178                      0                  28,178
    Books and Reports                                                        830                    0                     830

    Consultant Fees                                                    777,230               $4,562                   772,668

    Web Hosting Services                                                22,961                      0                  22,961

    Dues/Subscriptions                                                  27,728                      0                  27,728

    Insurance                                                             7,946                     0                   7,946

    Legal, License and Fees                                             23,240                      0                  23,240

    Meetings/Conferences                                                56,737                7,907                    48,830

    Miscellaneous                                                       23,052               (3,200)                   26,252

    Office Supplies                                                     11,384                     0                   11,384

    Postage & Printing                                                    9,603                    0                    9,603

    Temporary Labor                                                       3,688                    0                    3,688

    Training and Development                                            15,335                     0                   15,335

    Travel                                                              22,758              (1,263)7                   24,021

    Fee Based Service Income                                              (784)                    0                    (784)

    Allocated Direct Costs                                             351,210               1,645                    349,565

    Adjustment to G&A Pool                                              (1,570)                    0                   (1,570)

    Total                                                          $1,922,493               $9,651                 $1,912,842


7
    This amount includes unallowable costs of $2,038 and indirect costs misclassified as direct costs of $3,301.

                                                                21
                                                                            EXHIBIT E

                The National Council on the Aging, Inc.
           Schedule of Reported and Questioned Indirect Costs
                   Grant Number D-6635-8-00-81-55
                  July 1, 1998, Through June 30, 1999


            Cost Categories              Reported       Questioned    Per Audit

Salaries                                     $309,392            0       $309,392

Fringe Benefits                                55,746            0         55,746

Audit Fees & Advertising/Recruitment           62,707            0         62,707

Bank Charges, Books and Reports                 2,007            0          2,007
Computer Labs                                 (3,080)            0        (3,080)

Consultant Fees                               949,845            0        949,845

Web Hosting Services                           19,528            0         19,528

Dues/Subscriptions                             32,775            0         32,775

Insurance and Legal                             6,472            0          6,472

License and Fees                               15,280            0         15,280

Meetings/Conferences                           18,097       $2,055         16,042

Annual, Fall & Mid-Year Conference             60,163            0         60,163

Miscellaneous                                  16,049          384         15,665

Office Supplies                                 8,687            0          8,687

Other Expenses/Income                           (766)            0          (766)

Penalties and Interest                           445             0           445

Postage, Printing, Software and Taxes           9,434            0          9,434

Temporary Labor                                71,659         7,656        64,003

Training and Development                       22,817           87         22,730

Travel                                         10,623         3,666         6,957

Fee Based Service Income                      (1,025)            0        (1,025)

Allocated Direct Costs                        270,916         3,420       267,496

Adjustment to G&A Pool                          (455)            0          (455)

Total                                    $1,937,316        $17,268     $1,920,048


                                        22
